TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Controls Over the Contracting Officer’s
                   Technical Representatives Workforce Were
                   Ineffective, Resulting in Significant Risks to
                                 the Government



                                          September 30, 2009

                                Reference Number: 2009-10-139




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 30, 2009


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Controls Over the Contracting Officer’s Technical
                             Representatives Workforce Were Ineffective, Resulting in Significant
                             Risks to the Government (Audit # 200810031)

 This report presents the results of our review of the controls over the Contracting Officer’s
 Technical Representatives (COTR) workforce. The overall objective of this review was to
 determine whether the Internal Revenue Service (IRS) COTRs are properly managed and
 functioning in a manner, as directed by the responsible Contracting Officers (CO) and applicable
 guidance, which will ensure that goods/services are received in accordance with the terms of the
 contracts and within the cost and/or schedule requirements. This review was part of the Treasury
 Inspector General for Tax Administration’s Fiscal Year 2008 Annual Audit Plan risk-based
 coverage under the major management challenge of Erroneous and Improper Payments and our
 Cross-Cutting Acquisition Audit Strategy to provide comprehensive oversight of IRS acquisition
 activities.

 Impact on the Taxpayer
 The COTR workforce is a key internal control to ensure that the contractor is meeting the
 Government’s interest in terms of providing deliverables that are of high quality, complete,
 timely, and cost effective. However, the IRS’ contract administration was ineffective. As a
 result, the IRS cannot ensure that payments were made only to contractors who performed in
 accordance with contract terms and conditions and that taxpayer dollars are not being misspent.
                           Controls Over the Contracting Officer’s Technical
                        Representatives Workforce Were Ineffective, Resulting in
                                 Significant Risks to the Government



Synopsis
IRS management needs to take steps to strengthen their strategic management of the COTR
workforce. COTRs are not properly managed and functioning in a manner, as directed by the
responsible COs and applicable guidance, to ensure that goods/services are received in
accordance with the terms of the contracts and within the cost and/or schedule requirements. As
a result, we believe that IRS contract administration was ineffective to ensure that the Federal
Government was receiving the appropriate goods and services.
We determined that the majority of the formally delegated 1 COTRs were not performing the
day-to-day contract oversight or the actual physical receipt and acceptance of contract
deliverables for the procurements to which they were assigned. Instead, these COTRs limited
their involvement to administrative functions (i.e., documenting receipt of goods and services in
the Web Request Tracking System 2 ) and relied on program office employees that were usually
collocated with the contractors’ employees to determine whether the goods or services provided
by the contractor were acceptable. However, these program office employees were never
formally delegated COTR authority 3 by the responsible CO and had not received training in
Federal contracting to perform their contract administration role. When unauthorized personnel
inspect deliverables, make recommendations regarding contract payments, or instruct the vendor
to perform work outside the scope of the contract, there is a risk that unauthorized commitments
can occur or work may not be completed in accordance with contractual requirements.
Our review determined that 31 COTRs, who were responsible for the oversight of 54 contract
actions that totaled approximately $45.1 million, were not performing all of their COTR
oversight duties. Only 6 (19 percent) of the 31 formally delegated COTRs actually physically
received and accepted deliverables on 11 of the 54 contract actions we reviewed. The remaining
81 percent of the COTRs relied upon 36 IRS program office employees to perform these tasks
for the other 43 contract actions. However, 30 (83 percent) of the 36 program office employees
were not authorized to perform their COTR duties. 4 In addition, the program office employees
had not received any required COTR training. Yet, they were routinely making decisions on
whether deliverables met the technical requirements of the Federal Government and making
recommendations on payments for goods and services.
In addition, IRS managers responsible for supervising COTRs are not periodically monitoring
and/or reviewing the COTR contract files for accuracy and completeness. The Federal
Acquisition Regulation 5 requires agencies to ensure that contract files are current, complete, and

1
  For explanation of term, see Page 4 of the report, footnote 9.
2
  For explanation of term, see Page 4 of the report, footnote 12.
3
  For explanation of term, see Page 4 of the report, footnote 13.
4
  For explanation of term, see Page 6 of the report, footnote 16.
5
  48 C.F.R. ch. 1 (2009).
                                                                                                  2
                       Controls Over the Contracting Officer’s Technical
                    Representatives Workforce Were Ineffective, Resulting in
                             Significant Risks to the Government


accurate. We identified 40 contract actions having a combined total value of $31.8 million for
labor hour expenses. These 40 contracts were assigned to 26 (84 percent) of the 31 sampled
COTRs. Our review of these contract files showed that 85 percent (22 of 26) of these COTRs
did not have sufficient documentation to support their approval of the contractor’s billed labor
charge. Even when these COTRs retained copies of the contractor’s invoice and corresponding
monthly summary of the contract employees’ hours, these charges could not be validated.
The IRS needs to improve the performance assessment process for the COTRs and ensure that
they are held accountable for their contract management duties. Our discussions with the
supervisors of formally delegated COTRs indicated that all 31 supervisors considered various
contract management responsibilities when evaluating whether their employees effectively
performed their COTR duties. However, our review of the annual evaluations showed only
10 COTRs (32 percent) had their COTR duties acknowledged; the remaining 21 (68 percent)
employees had no mention of these duties in their annual performance evaluations.
Conversely, we found that the program office supervisors, who had employees unofficially
performing COTR responsibilities, have not had any formal COTR or contract management
training to fully understand the scope of the COTRs responsibilities. In our review of the annual
performance evaluations, only 1 of the 36 employees had a specific narrative documenting their
contract management activities regarding the performance of receipt and acceptance of contract
deliverables.
The IRS has taken positive steps to improve its COTR personnel by initiating mandatory training
for all employees, who were formally delegated as COTRs, to complete the required professional
certification and set standard time periods for this training. However, the IRS needs to develop
an on-the-job process for supporting newly selected and less experienced COTRs that have
minimal contract administration experience. We found that some supervisors informally
provided on-the-job support for newly selected or less experienced COTRs, but this practice
needs to be consistently applied across the IRS program offices with a more formal structure.

Recommendations
The Deputy Commissioner for Operations Support and the Deputy Commissioner for Services
and Enforcement should: 1) establish and implement cross-cutting guidance that effectively
ensures that the IRS provides appropriate contract monitoring to reduce acquisition risks;
2) identify all IRS employees agency wide performing COTR-related duties and ensure that they
are formally delegated authority by the responsible CO, appropriately trained, and certified in
accordance with Federal acquisition requirements; 3) ensure their supervisors are knowledgeable
of the oversight requirements for the contracts their employees are assigned to monitor and
evaluate all aspects of their employees’ contract management performance; and 4) ensure that
consistent ongoing on-the-job support is provided for newly selected or less experienced COTRs.
Finally, the Director, Office of Procurement, should reevaluate the current approach and expand
                                                                                                   3
                       Controls Over the Contracting Officer’s Technical
                    Representatives Workforce Were Ineffective, Resulting in
                             Significant Risks to the Government


the reviews of COTR contract files to ensure reviews are routinely performed to substantiate that
relevant, accurate, and complete documentation is being received, verified, and retained to
support the contractors’ billed expenses.

Response
The IRS agreed with four of the five recommendations and agreed in part with one
recommendation. Specifically, the Deputy Commissioner for Operations Support and the
Deputy Commissioner for Services and Enforcement will communicate the importance of the
COTR role in a Service-wide memorandum emphasizing the importance of proper contract
administration and contract monitoring. The Office of Procurement will also update its internal
guidance to include a requirement for COTR communication documentation, a standard COTR
contract administration file checklist, a requirement for all COs to meet with COTRs upon
appointment and on a periodic basis following appointment, and to review COTR contract
administration files annually.
The IRS also plans to provide receiving officials and COTRs with computer-based training on
their receipt and acceptance duties, as well as on COTR roles and responsibilities. Training
modules will be developed for COs on how to review COTR contract files and for managers of
COTRs and receiving officials on the manager’s oversight requirements and responsibilities
when their employees are assigned to monitor contracts.
The IRS further plans to modify the COTR’s letter of appointment to include new requirements
regarding maintaining COTR files and responsibilities of supervisors, including a signature line
for supervisors to acknowledge their understanding of these responsibilities and oversight
requirements.
Prior to our review, the IRS launched an online IRS Procurement 101 Reference Guide to
provide COTRs with a resource to learn basic procurement information. The Office of
Procurement will continue to provide COTR training and continuous learning opportunities in
accordance with the Government-wide Federal Acquisition Certification for COTRs policy. The
IRS has also implemented procedures that require COs to appoint qualified COTRs for all
contract actions exceeding the simplified acquisition threshold of $100,000 and that COs ensure
COTRs meet their Federal Acquisition Certification and Web Request Tracking System
requirements.
The IRS respectfully disagreed with the recommendation to amend annual employee evaluation
documents to include employee contract management responsibilities in the critical job elements
and position description standards for all employees performing COTR responsibilities. Because
the COTR is not a job title or a job series, and COTRs hold many different positions throughout
the Service, IRS management cannot amend COTR annual employee evaluation documents for
all employees performing COTR duties. COTR duties are considered “other duties as assigned”

                                                                                                   4
                       Controls Over the Contracting Officer’s Technical
                    Representatives Workforce Were Ineffective, Resulting in
                             Significant Risks to the Government


in the various position descriptions. IRS Procurement subsequently clarified one part of their
disagreement and agreed that the COTR’s supervisor should discuss performance of contract
management duties in the COTR’s performance appraisal narrative.
Lastly, the IRS respectfully disagreed with the recommendation for COs to provide input to the
performance evaluations of IRS staff performing contract management duties on IRS contracts.
The IRS’ National Agreement states, “The Employer has determined that bargaining unit
employees (e.g., Leads) may report to a supervisor what they have observed involving the
performance of workload assigned to the employees of their work group.” Most COs are
bargaining unit employees but are usually not members of the same work group as the COTR.
Nor are they often the lead of a work group which includes the COTR. Therefore, to be in
compliance with the National Agreement, COs cannot provide input to the performance
evaluations of IRS staff performing contract management duties. Management’s complete
response to the draft report is included as Appendix V.

Office of Audit Comment
We agree with the IRS’ corrective action to provide specific training to ensure that supervisors
are knowledgeable of their oversight responsibilities for the contracts their employees are
assigned to monitor. However, the IRS response does not indicate whether this training will be
required training for all supervisors of COTRs and receiving officials. We believe it should be.
We also agree with the corrective action of modifying the COTR letter of appointment to include
the supervisor’s responsibilities as well as their signature acknowledging their understanding of
these responsibilities and the oversight requirements for the contracts their employees are
assigned to monitor. Regarding the issue of allowing COs to provide input to the appraisals of
COTRs or receiving officials, we are concerned that the IRS’ actions of training supervisors on
how to evaluate their employee’s performance of COTR or receiving official duties will not be
sufficient to provide appropriate performance feedback and accountability. We recognize the
terms of the collective bargaining agreement are controlling and that the IRS is contractually
obligated to adhere to its terms. We would note, however, that the IRS could attempt to
negotiate different terms to the collective bargaining agreement at the next available opportunity.
The quality and effectiveness of the Federal Government acquisition process depends on an
accountable acquisition workforce. We believe the COTRs’ receipt of performance feedback
from the responsible CO is critical to that outcome.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations), at (202) 622-8500.



                                                                                                  5
                              Controls Over the Contracting Officer’s Technical
                           Representatives Workforce Were Ineffective, Resulting in
                                    Significant Risks to the Government




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Employees Are Not Always Formally Delegated and Trained Prior to
          Performing Contracting Officer’s Technical Representative Duties ............Page 5
                    Recommendations 1 and 2: ..............................................Page 7

          Contracting Officer’s Technical Representatives Did Not
          Always Review, Verify, and Maintain Appropriate Invoice/Voucher
          Documentation Prior to Releasing Payment .................................................Page 8
                    Recommendation 3:........................................................Page 9

          Performance Evaluations for Employees Involved in Contract
          Management Did Not Address Contracting Officer’s Technical
          Representative Responsibilities. ...................................................................Page 10
                    Recommendation 4:........................................................Page 12

          Newly Selected and Less Experienced Contracting Officer’s
          Technical Representatives Are Not Adequately Trained..............................Page 13
                    Recommendation 5:........................................................Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – Selected Contracting Officer’s Technical
          Representatives Interviewed, by Internal Revenue Service
          Business Division and Field Office Locations..............................................Page 20
          Appendix V – Management’s Response to the Draft Report .......................Page 21
          Controls Over the Contracting Officer’s Technical
       Representatives Workforce Were Ineffective, Resulting in
                Significant Risks to the Government




                    Abbreviations

CO            Contracting Officer
COTR          Contracting Officer’s Technical Representative
FAR           Federal Acquisition Regulation
IRS           Internal Revenue Service
P&P           Policy and Procedures
                          Controls Over the Contracting Officer’s Technical
                       Representatives Workforce Were Ineffective, Resulting in
                                Significant Risks to the Government




                                            Background

The Internal Revenue Service (IRS) Office of Procurement provides acquisition management for
IRS operations. During Fiscal Year 2008, the Office of Procurement’s acquisition funding of
$1.8 billion accounted for 16 percent of the IRS’ total budget of $11 billion. As of
February 28, 2008, the Office of Procurement managed approximately 709 contracts of varying
types with a total contract value over the life of the contracts of approximately $34 billion.
The “acquisition team” consists of all participants in the acquisition process including program
managers, Contracting Officers (CO), and Contracting Officer’s Technical Representatives
(COTR). IRS program managers are responsible for providing justification and certifying that
there is a legitimate Federal Government need for the goods or services to be covered by the
contract, as well as sufficient funding to pay for the goods or services.
Procurement professionals, primarily COs, serve as the legal agents of the Federal Government
responsible for the integrity of the contracting process. The Federal Acquisition Regulation
(FAR) 1 states that the CO is responsible for safeguarding the Federal Government’s interests,
ensuring performance of all necessary actions for effective contracting, and ensuring contractors
are complying with contract terms. He or she usually works in the procurement office rather
than the program office and provides the expertise on the transactional aspects of the contracting
process, such as entering into, administering, or terminating contracts and making related
determinations and findings. 2
The FAR stipulates that only a CO has the authority to enter into, change, or terminate a contract,
order, agreement, lease, or other transaction on behalf of the Federal Government. The CO signs
and has legal responsibility for obligating3 documents. A CO’s authority, and any limits to that
authority, is stated in a Certificate of Appointment commonly referred to as a “warrant.” 4
Although the CO must retain certain contracting responsibilities, he or she may delegate some
responsibilities. For example, a CO without expertise to oversee the technical aspects of
contractor performance may delegate this duty. Therefore, it is common for the CO to formally
delegate the technical oversight and/or administrative management aspects of the contracting
process to a COTR.


1
  48 C.F.R. ch. 1 (2009).
2
  FAR Subpart 1.602-1.
3
  An obligation is a definite commitment by the Federal Government to spend appropriated funds. A binding
contract is an obligation.
4
  Under FAR provisions, COs must be appointed in writing on a Certificate of Appointment (Standard Form 1402).
This Certificate of Appointment is commonly referred to as a “warrant.” Selection, appointment, and termination of
CO appointments are accomplished in accordance with the procedures in FAR Subpart 1.603.
                                                                                                          Page 1
                          Controls Over the Contracting Officer’s Technical
                       Representatives Workforce Were Ineffective, Resulting in
                                Significant Risks to the Government


The COTRs perform critical duties to protect the public’s interest in ensuring that contract
deliverables meet the needs of the Federal Government. Within the Federal Government, the
COTRs usually work in a program office, the functional organization that needs a good or
service provided by the contract. The COTRs provide the technical and program expertise
necessary to develop and manage the contract and are usually selected by or with the advice of
the program office. In addition, the COTRs have authority to work on contracts only when they
have been formally delegated such authority by the CO and may not delegate their authority to
others.
On November 26, 2007, the Office of Federal Procurement Policy issued the Federal Acquisition
Certification requirement for COTRs and established a structured training program that
standardized competencies and training across civilian agencies. 5 The Department of the
Treasury COTR Acquisition Regulation requires that each Bureau’s procurement office establish
policy and procedures for COTR selection, training, and certification. All individuals who are
acting as COTRs on IRS contracts must meet training and certification requirements. All
COTRs appointed to a contract after November 26, 2007, must be certified no later than
6 months from the date of their appointment and must maintain their skills through continuous
learning. They are required to attend a minimum of 40 hours of training every 2 years. Of these
40 hours, 22 must cover essential COTR competencies.
Department of the Treasury Acquisition Regulations also require COs to formally delegate
authority to a COTR 6 for all contractual actions exceeding the simplified acquisition threshold 7 of
$100,000. This step ensures that COTRs are fully informed of what they must do and also what
they cannot do on a particular contract. It also protects the Federal Government from the
harmful effects of COTRs acting beyond the scope of their authority or acting without authority,
which could lead to unauthorized commitments and work that is not being completed in full
compliance with contractual requirements.



5
  The Clinger-Cohen Act of 1996 (Federal Acquisition Reform Act of 1996) (Information Technology Management
Reform Act of 1996) Pub, L, No, 104-106, 110 Stat.642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10
U.S.C., 15 U.S.C., 16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41
U.S.C., 42 U.S.C., 44 U.S.C., 49 U.S.C., 50 U.S.C). Office of Federal Procurement Policy, Policy Letter 05-01
implements the Services Acquisition Reform Act (SARA) of 2003 (41 U.S.C. 428a) by designating COTRs as
members of the acquisition workforce and by encouraging agencies to require that COTRs achieve 40 continuous
learning points every 2 years after certification. The Office of Federal Procurement Policy in the Office of
Management and Budget plays a central role in shaping the policies and practices federal agencies use to acquire the
goods and services they need to carry out their responsibilities. The SARA established a Services Acquisition
Advisory Panel to make recommendations for improving acquisition practices. In January 2007, the panel proposed
89 recommendations to improve federal acquisition practices.
6
  IRS Memorandum 1.6(C), Appointment of COTRs and Alternate COTRs, dated January 1, 2008.
7
  Purchases of supplies or services less than $100,000, using simplified procedures described in FAR Part 13.
Simplified acquisitions include purchase card buys, purchase orders, electronic purchasing, task and delivery orders
against established contracts, imprest fund buys, and blanket purchase agreements.
                                                                                                            Page 2
                             Controls Over the Contracting Officer’s Technical
                          Representatives Workforce Were Ineffective, Resulting in
                                   Significant Risks to the Government


When unauthorized personnel perform the inspection of deliverables and make recommendations
regarding contract payments without the benefit of formal procurement training to match their
technical expertise, there is a risk that work may not be completed in full compliance with
contractual requirements. For example, if an IRS employee without contracting authority enters
into a contractual agreement with a vendor on behalf of the IRS or instructs the vendor to
perform work outside the scope of the contract, an unauthorized commitment has occurred.
Examples of unauthorized commitments include when employees accept or order goods prior to
processing a requisition or obtaining necessary authorizations, approve work beyond the scope or
dollar value of an existing contract, or authorize a contractor to perform work after the expiration
date of the contract.
When work is performed as a result of an unauthorized commitment, the vendor cannot be paid
for the work until a legitimate contract is established through “ratification.” In a contract
ratification action, the ratifying official reviews the facts pertaining to the unauthorized
commitment and determines whether to make the action whole and legally binding after the fact.
While we did not specifically look at unauthorized commitments or ratifications as part of this
review, we view it as a potential risk if IRS COTRs are performing contract management without
the required authority or training.
In February 2009, the American Recovery and Reinvestment Act of 2009 8 was signed into law
with sections addressing contracts and contract management. In addition, the Office of
Management and Budget issued two sets of implementing guidance for the American Recovery
and Reinvestment Act of 2009 to Federal agencies on February 18, 2009, and April 3, 2009,
which also address the need for sufficient qualified acquisition personnel to perform contract
administration to mitigate the Government’s risk.
This review was performed at the Office of Procurement in Oxon Hill, Maryland, and
various other program offices in Washington, D.C.; Chicago, Illinois; New Carrollton, Maryland;
Detroit, Michigan; Austin, Texas; Dallas, Texas; and Kearneysville, West Virginia, and
within the National Headquarters of the IRS Large and Mid-Size Business,
Small Business/Self-Employed, and Wage and Investment Divisions, during the period
March 2008 through March 2009. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




8
    Pub. L. No. 111-5, 123 Stat. 115.
                                                                                             Page 3
                           Controls Over the Contracting Officer’s Technical
                        Representatives Workforce Were Ineffective, Resulting in
                                 Significant Risks to the Government




                                       Results of Review

IRS management needs to take steps to strengthen their strategic management of the COTR
workforce. COTRs are not properly managed and functioning in a manner, as directed by the
responsible Contracting Officers (CO) and applicable guidance, to ensure that goods/services are
received in accordance with the terms of the contracts and within the cost and/or schedule
requirements. As a result, we believe that IRS contract administration was ineffective to ensure
that the Federal Government was receiving the appropriate goods and services.
We determined that the majority of the formally delegated 9 COTRs were not performing the
day-to-day contract oversight or the actual physical receipt and acceptance 10 of contract
deliverables for the procurements to which they were assigned. Instead, these COTRs limited
their involvement to administrative functions (i.e., documenting receipt 11 of goods and services
in Web Request Tracking System 12 ) and relied on program office employees that were usually
collocated with the contractors’ employees to determine whether the supply or service provided
by the contractor was acceptable. However, these program office employees were never
formally delegated COTR authority 13 by the responsible CO and had not received training in
Federal contracting to perform their contract administration role. When unauthorized personnel
inspect deliverables, make recommendations regarding contract payments, or instruct the vendor
to perform work outside the scope of the contract, there is a risk that unauthorized commitments
can occur or work may not be completed in accordance with contractual requirements.



9
  At the time a COTR is to become responsible for a contract, task order, or delivery order, the CO must issue a
written appointment letter of delegation informing the individual by name of his or her authority, including a
delineation of applicable limitations and responsibilities.
10
   Acceptance is the act of an authorized representative of the Government by which the Government assumes
ownership of supplies or approves services rendered. By accepting the supplies or services, the COTR, Alternate
COTR or Government Representative acknowledges that the supplies or services conform to contract requirements.
Acceptance may be for partial or complete performance of the contact, task order, or delivery order (Policy and
Procedures (P&P) No. 46.5).
11
   Receipt is defined as the documentation of acknowledgement that supplies were received or services were
rendered. (P&P No 46.5).
12
   Web Request Tracking System is a new web-based version of the previous Request Tracking System. It provides
a multitude of functions throughout the acquisition process to include: create, route, approve, and fund requests for
goods and services.
13
   Because the Government purchases supplies and services that often require technical expertise to determine the
acceptability of the supply or service, the CO often appoints an individual who possesses this expertise to be the
COTR (alternate COTR or Technical Point of Contact) in accordance with IRS P&P No 1.6. If the Acquisition
Project Manager or Government Task Managers are performing the COTR role they must be formally delegated and
receive the required COTR training and certification in compliance with Federal requirements.
                                                                                                             Page 4
                             Controls Over the Contracting Officer’s Technical
                          Representatives Workforce Were Ineffective, Resulting in
                                   Significant Risks to the Government


In addition, COTRs were not evaluated on their performance of contract administration duties.
Without appropriate management of the COTR workforce and effective contract administration,
the IRS is at risk that positive contract outcomes, in terms of quality, completeness, timeliness,
and the appropriate cost of deliverables may not occur.
To ensure that the IRS effectively and reliably fulfills its critical contract monitoring
responsibilities, it must make certain that:
       •   Employees are formally delegated authority and trained before performing COTR
           responsibilities.
       •   COTRs effectively review contractor billings for accuracy prior to recommending
           payment to the responsible CO, and request, validate, and maintain adequate supporting
           documentation for invoice/voucher 14 verifications in contract files.
       •   COTRs are assessed on their contract administration duties as part of the performance
           evaluation process.
       •   Newly hired and less experienced COTRs have adequate ongoing on-the-job support.

Employees Are Not Always Formally Delegated and Trained Prior to
Performing Contracting Officer’s Technical Representative Duties
The CO is ultimately responsible for the adherence to and management of the terms of the
contract. The Office of Procurement Policy requires COs to appoint a COTR (and if applicable
an alternate COTR) on all awarded contracts exceeding the simplified acquisition threshold of
$100,000. The COTR becomes the “eyes and ears” of the CO by ensuring that technical
requirements are being met and that the contractor is adhering to the terms of the contract. The
formally delegated COTR (and/or an alternate COTR) must be technically experienced to ensure
that the receipt and acceptability of the contract deliverables on behalf of the Federal
Government are appropriate and meet the terms of the contract. The Services Acquisition
Reform Act of 2003 15 expanded the definition of acquisition to include functions performed by
COTRs, such as managing and measuring contract performance and providing technical
direction.
The IRS currently uses its formally delegated COTRs to perform administrative duties and often
relies on untrained program office personnel to perform day-to-day onsite contract management.
This practice is inappropriate because these program office individuals have not been formally
delegated authority to perform contract management by a responsible CO and may not
understand the duties and responsibilities that they are assuming in taking on this role. Yet, they
were routinely making decisions on whether deliverables met the technical requirements of the

14
     For purposes of this report, the words “vouchers” and “invoices” are used interchangeably.
15
     P.L. 108-136.
                                                                                                  Page 5
                           Controls Over the Contracting Officer’s Technical
                        Representatives Workforce Were Ineffective, Resulting in
                                 Significant Risks to the Government


recommendations to the Office of Procurement. They stated that their employees were
technically qualified and familiar with the contract requirements for the deliverables. Although
these employees may be technically qualified in their program office responsibilities, we believe
their lack of knowledge of appropriate IRS procurement practices and procedures and FAR
represents a significant risk to the proper administration of the subject contracts.
The quality and effectiveness of the Federal Government acquisition process depends on the
development of a capable and competent workforce. If the IRS determines that program office
personnel, Technical Points of Contact, 17 Acquisition Project Managers, and Government Task
Managers are the appropriate staff to physically receive and accept the contract deliverables and
approve payments to the contractors, the COs should be formally delegating them this authority
so they understand their duties and responsibilities and are given the appropriate training.
Without appropriate management of the COTR workforce, the IRS is lacking a key internal
control to ensure that the contractor is meeting the public’s interest in terms of providing
deliverables that are of high quality, complete, timely, and cost effective.

Recommendations
Recommendation 1: The Deputy Commissioner for Operations Support and the Deputy
Commissioner for Services and Enforcement should establish and implement cross-cutting
guidance that effectively ensures that the IRS provides appropriate contract monitoring to reduce
acquisition risks. The remaining recommendations (2 through 5) cover various aspects of this
cross-cutting guidance and should be included in the final guidance as well.
         Management’s Response: The IRS agreed with the recommendation. The Deputy
         Commissioner for Operations Support and the Deputy Commissioner for Services and
         Enforcement will communicate the importance of the COTR role in a Service-wide
         memorandum emphasizing the importance of proper contract administration and contract
         monitoring. The Office of Procurement will update internal guidance for
         Calendar Year 2010 to include a section for COTR communication documentation.
Recommendation 2: The Deputy Commissioner for Operations Support and the Deputy
Commissioner for Services and Enforcement should identify all IRS employees agency wide
who are performing COTR-related duties and ensure that they are formally delegated authority
by the responsible CO on their procurement duties, appropriately trained, and certified in
accordance with Federal acquisition requirements.
         Management’s Response: The IRS agreed with the recommendation. The Office of
         Procurement’s internal guidance requires that COs appoint a qualified COTR for all


17
  Because the Government purchases supplies and services that often require technical expertise to determine the
acceptability of the supply or service, the CO often appoints an individual who possesses this expertise to be the
COTR (alternate COTR or Technical Point of Contact) in accordance with IRS P&P No 1.6.
                                                                                                             Page 7
                          Controls Over the Contracting Officer’s Technical
                       Representatives Workforce Were Ineffective, Resulting in
                                Significant Risks to the Government


        contractual actions exceeding the simplified acquisition threshold by issuing a signed
        letter of appointment tailored to meet the needs of each contractual action assigned. The
        guidance also requires that COs ensure COTRs meet the requirements of the Federal
        Acquisition Certification for COTRs; ensure that COTRs are registered Web Request
        Tracking System users and have self-certified as an eligible COTR in their user profile;
        and designate COTRs in the web Integrated Procurement System for all contractual
        actions exceeding the simplified acquisition threshold. Upgrades made to the Web
        Request Tracking System in Fiscal Year 2008 included a feature that provides the
        capability to generate a report identifying all COTRs formally delegated authority for
        contractual actions by the responsible CO.
        To ensure receiving officials and COTRs are trained appropriately on the responsibilities
        for receipt and acceptance in the Web Request Tracking System and the differences
        between receipt and acceptance, the Office of Procurement will develop a computer-
        based training module for all Web Request Tracking System users performing receipt and
        acceptance.

Contracting Officer’s Technical Representatives Did Not Always
Review, Verify, and Maintain Appropriate Invoice/Voucher
Documentation Prior to Releasing Payment
IRS managers responsible for supervising COTRs are not periodically monitoring and/or
reviewing the COTR contract files for accuracy and completeness. The FAR requires agencies
to ensure that contract files are current, complete, and accurate. Invoice/voucher processing 18 is
an important aspect of contract administration. The Federal Government expects the contractor
to meet all contract requirements for quality, quantity, and timeliness. Therefore, it is incumbent
upon program, procurement, and finance officials to clearly understand their roles and
responsibilities related to reviewing and processing invoices/vouchers. An important aspect of
invoice/voucher review, approval, and processing is good communication between the COTR,
CO, and finance official to ensure that payment is made properly and timely.
We identified 40 contract actions having a combined total value of $31.8 million for labor hour
expenses. These 40 contracts were assigned to 26 of the 31 (84 percent) sampled COTRs. Our
review of these contract files showed that 85 percent (22 of 26) of these COTRs did not have
sufficient documentation to support their approval of the contractor’s billed labor charge. Even
when these COTRs had retained copies of the contractor’s invoice and corresponding monthly
summary of the contract employees’ hours, these charges could not be validated. While
time/billable hours invoices submitted for payment to the IRS did reflect the individual contract

18
  The COTR’s approval of an invoice/voucher implies that to the best of the COTR’s knowledge, the nature, type,
and quantity of effort or materials being expended are in general accordance with the progress of work under the
contract.
                                                                                                          Page 8
                          Controls Over the Contracting Officer’s Technical
                       Representatives Workforce Were Ineffective, Resulting in
                                Significant Risks to the Government


employees’ names and provided a summary of the total hours worked, the COTRs did not
receive, request, or retain any documentation to support that the labor category/rate was
appropriate or that individual timesheets had been reviewed and approved by contractor
management to support the billings. As a result, the IRS cannot ensure that payment was only
made to contractors who performed in accordance with contract terms and conditions and that
taxpayer’ dollars are not being misspent.
The IRS has established procedures detailing how COTRs are to properly perform
invoice/voucher verifications. A plan or process for quickly and efficiently meeting this
obligation is essential. Establishing better controls to ensure compliance with the FAR policies
and guidelines is recommended. In a prior report, 19 we recommended that the IRS “should
provide training on the Guidebook 20 and follow up to ensure that all COTRs receive and use the
invoice/voucher verification guidance developed as part of the Guidebook.” The IRS agreed
with our recommendation and proposed that “a quality review process will be implemented to
monitor compliance with the invoice/voucher verification guidance.” The IRS quality review
process is scheduled to be implemented in July 2009. As a result, we are making no further
recommendations on the voucher/invoice verification process at this time.

Recommendation
Recommendation 3: The Director, Procurement, should reevaluate the IRS’ current approach
and expand the reviews of COTR contract files to ensure that reviews are routinely performed to
substantiate that relevant, accurate, and complete documentation is being received, verified, and
retained to support the contractor’s billed expenses.
        Management’s Response: The IRS agreed with the recommendation. One of the
        primary duties listed in the letter of appointment requires COTRs to maintain an
        organized contract administration file. The Office of Procurement will develop a
        standard COTR contract administration file checklist and include the requirement in the
        letter of appointment that COTR files be maintained in accordance with the checklist.
        The Office of Procurement’s internal guidance will be updated to include a requirement
        for all COs to meet with COTRs upon appointment and on a periodic basis following
        appointment and to review COTR files annually to ensure that files are maintained in
        accordance with the checklist. In addition, the Office of Procurement will develop
        IRS-specific training for COTRs on roles and responsibilities, including how to maintain
        their contract administration files and IRS specific training on how to review COTR
        contract administration files.

19
   Procurement’s Control Environment Was Ineffective and Did Not Prevent Overpayments to Contractors
(Reference Number 2008-10-092, dated March 28, 2008).
20
   The Guidebook is a web-based system that includes standardized processes, procedures, templates, and best
practices used by COs, COTRs, and Procurement customers.
                                                                                                          Page 9
                       Controls Over the Contracting Officer’s Technical
                    Representatives Workforce Were Ineffective, Resulting in
                             Significant Risks to the Government


Performance Evaluations for Employees Involved in Contract
Management Did Not Address Contracting Officer’s Technical
Representative Responsibilities
The IRS needs to improve the performance assessment process for COTRs and ensure that they
are held accountable for their contract management duties. During our review, we found that
personnel guidelines used to evaluate employees’ annual performance do not include
procurement-related responsibilities for those employees performing the COTRs’ role. In
addition, the current annual evaluation form being used by IRS managers to evaluate formally
delegated COTRs does not address specific COTR responsibilities. These personnel guidelines
specify the critical job elements and job descriptions which serve as the IRS’ official documents
for evaluating personnel. As a result, if they do not include COTR responsibilities, the job
elements and evaluations for employees will be incomplete and employees may not be properly
evaluated on all their assigned duties and responsibilities.
The IRS Performance Management System provides a framework for supervisors and employees
to improve communications, coordinate planning activities, link individual and organizational
performance, and ensure fair and consistent treatment of taxpayers. Performance management is
the systematic process by which the IRS involves its employees, as individuals and members of a
group, in improving organizational effectiveness to accomplish the mission and goals of the
agency.
A position description document is an official description of the major duties, responsibilities,
qualification requirements, and supervisory relationships of a position. Managers and
supervisors should clearly define what duties and responsibilities will be assigned to each
position. They may also direct and assign specific tasks which are not reflected in the position
description. However, should such tasks become major responsibilities, the position description
must be modified to incorporate those tasks and have these properly classified.

Individuals formally delegated as COTRs are not being properly evaluated
Discussions with the supervisors of the 31 formally delegated COTRs included in our sample
indicated that all of the supervisors considered various contract management responsibilities
when evaluating whether the employee effectively performed their COTR duties. However, our
review of the annual evaluations for them showed only 10 COTRs (32 percent) had their COTR
duties acknowledged in their annual performance evaluation associated narrative. For the
remaining 21 (68 percent) annual evaluations, the supervisors made no mention of these duties in
their employees’ annual performance evaluations.
In addition, we interviewed the responsible COs to establish the extent of their involvement in
the COTRs’ evaluation process. We determined that the COTRs’ supervisors did not solicit
information from the COs about the COTRs’ performance, and that while the COs do make
themselves readily available to answer COTRs’ questions as they are carrying out their contract

                                                                                          Page 10
                       Controls Over the Contracting Officer’s Technical
                    Representatives Workforce Were Ineffective, Resulting in
                             Significant Risks to the Government


oversight duties, COs do not directly monitor the responsibilities that they have delegated to their
COTRs. This absence of oversight could prevent them from providing any practical
performance information to assist both the COTR in the performance of their delegated
responsibilities and the manager in evaluating their COTR employee.

Individuals unofficially performing COTR duties are not being evaluated on these
responsibilities
We also found that program office supervisors, who had employees unofficially performing
COTR responsibilities, have not had any formal COTR or contract management training to fully
understand the scope of the COTRs’ responsibilities. As a result, there is no basis for them to
evaluate their employees’ COTR activities. Our review of each program office employees’
annual performance evaluation narrative showed that only 1 of the 36 employees was
specifically documented for their contract management activities regarding the performance of
receipt and acceptance of contract deliverables. In fact, program office supervisors routinely
made no mention of whether their staffers were properly evaluating and certifying contractor
performance; reviewing and approving invoices; providing technical guidance; and acting as the
liaison between the program office, the CO, and the contractor after assigning them an unofficial
COTR role. Some program office supervisors simply viewed their employees’ contract
management duties broadly as a “collateral duty.”
Consequently, these supervisors seldom captured these critical contract management activities
when preparing their employees’ annual performance appraisals. If IRS employees are
improperly performing this task, the IRS could be receiving goods and services that fail to meet
contract performance requirements. However, since this issue was not documented in the
employees’ performance evaluations, there is no accountability or acknowledgement of
employees if they are not effectively performing their COTR duties. In addition, without the
responsible CO providing feedback on the staff involved on their specific contracts (including
both formally delegated COTRs and program office personnel), there is no assurance that IRS
employees are properly performing their contract management duties including ensuring that
contract terms and conditions are being met, deliverables are timely, and taxpayer funds are
being properly expended. If COTRs or program office personnel are not properly performing
their duties, they may need additional formal training or guidance from the COs. To allow
employees to continue to perform at a suboptimal level without providing feedback or coaching
is an ineffective management practice. It also presents a risk to the taxpayers that these COTRs,
who collectively have the responsibility for approving millions of dollars of contract invoices
annually, may be unknowingly authorizing payment for incomplete work or overbillings by the
contractor.




                                                                                           Page 11
                       Controls Over the Contracting Officer’s Technical
                    Representatives Workforce Were Ineffective, Resulting in
                             Significant Risks to the Government


Recommendation
Recommendation 4: The Deputy Commissioner for Operations Support and the Deputy
Commissioner for Services and Enforcement should ensure their supervisors are knowledgeable
of the oversight requirements for the contracts their employees are assigned to monitor and
evaluate all aspects of their employees’ contract management performance. In addition, IRS
management should amend their annual employee evaluation documents to include employee
contract management responsibilities in the critical job elements and position description
standards for all employees performing COTR responsibilities. Finally, the responsible CO
should provide input to the performance evaluations of IRS staff performing contract
management duties on their contracts.
       Management’s Response: The IRS agreed with the recommendation in part. The
       IRS agreed that the Deputy Commissioner for Operations Support and the Deputy
       Commissioner for Services and Enforcement should ensure their supervisors are
       knowledgeable of the oversight requirements for the contracts their employees are
       assigned to monitor. To facilitate this transfer of knowledge, the Office of Procurement
       will develop a computer-based training module to communicate the oversight
       requirements and responsibilities for managers of COTRs and receiving officials.
       The Office of Procurement will modify the letter of appointment to include the
       responsibilities of supervisors, as well as a signature line for the supervisor, signifying
       their understanding of these responsibilities and the oversight requirements for the
       contracts their employees are assigned to monitor.
       The IRS respectfully disagreed with the recommendation to amend annual employee
       evaluation documents to include employee contract management responsibilities in the
       critical job elements and position description standards for all employees performing
       COTR responsibilities. The IRS stated that because COTR is not a job title or a job
       series, and COTRs hold many different positions throughout the Service, IRS
       management cannot amend COTR annual employee evaluation documents for all
       employees performing COTR duties. These COTR duties are considered “other duties as
       assigned” in the various position descriptions. IRS Procurement subsequently clarified
       one part of their disagreement and agreed that the COTR’s supervisor should discuss
       performance of contract management duties in the COTR’s performance appraisal
       narrative.
       The IRS respectfully disagreed with the recommendation for COs to provide input to the
       performance evaluations of IRS staff performing contract management duties on their
       contracts. Article 12, Section 4.B.1. of the National Agreement states, “The Employer
       has determined that bargaining unit employees (e.g., Leads) may report to a supervisor
       what they have observed involving the performance of workload assigned to the
       employees of their work group.” Most COs are bargaining unit employees but are

                                                                                             Page 12
                       Controls Over the Contracting Officer’s Technical
                    Representatives Workforce Were Ineffective, Resulting in
                             Significant Risks to the Government


       usually not members of the same work group as the COTR, nor are they often the lead of
       a work group which includes the COTR. Therefore, to be in compliance with the
       National Agreement, COs cannot provide input to the performance evaluations of IRS
       staff performing contract management duties.
       Office of Audit Comments: We agree with the IRS’ corrective action to provide
       specific training to ensure that supervisors are knowledgeable of their oversight
       responsibilities for the contracts their employees are assigned to monitor. However, the
       IRS response does not indicate whether this training will be required training for all
       supervisors of COTRs and receiving officials. We believe it should be. We also agree
       with the corrective action of modifying the COTR letter of appointment to include the
       supervisor’s responsibilities as well as their signature acknowledging their understanding
       of these responsibilities and the oversight requirements for the contracts their employees
       are assigned to monitor. Regarding the issue of allowing COs to provide input to the
       appraisals of COTRs or receiving officials, we are concerned that the IRS’ actions of
       training supervisors on how to evaluate their employee’s performance of COTR or
       receiving official duties will not be sufficient to provide appropriate performance
       feedback and accountability. We recognize the terms of the collective bargaining
       agreement are controlling and that the IRS is contractually obligated to adhere to its
       terms. We would note, however, that the IRS could attempt to negotiate different terms
       to the collective bargaining agreement at the next available opportunity. The quality and
       effectiveness of the Federal Government acquisition process depends on an accountable
       acquisition workforce. We believe the COTRs’ receipt of performance feedback from
       the responsible CO is critical to that outcome.

Newly Selected and Less Experienced Contracting Officer’s Technical
Representatives Are Not Adequately Trained
The designated IRS Acquisition Chief Officer is responsible for ensuring that the acquisition
workforce is adequately trained to perform their jobs. The IRS has taken positive steps to
improve its formally delegated COTR personnel by initiating the following:
   •   Establishing a mandatory training program for all employees designated as COTRs to
       complete the required professional certification.
   •   Setting standard time periods for COTRs to take this training when they are assigned
       contract actions exceeding the simplified acquisition threshold of $100,000.
   •   Utilizing curriculum developed by the Treasury Acquisition Institute for COTRs to
       improve their acquisition skills.
   •   Promoting an annual COTR recognition program that celebrates and honors outstanding
       employees performing their jobs.

                                                                                         Page 13
                           Controls Over the Contracting Officer’s Technical
                        Representatives Workforce Were Ineffective, Resulting in
                                 Significant Risks to the Government


     •   IRS Procurement management periodically meeting with their COTR workforce to
         discuss and address any employee concerns.
However, the IRS needs to develop a formal on-the-job process for supporting newly selected
and less experienced COTRs that have minimal contract management experience. Some
managers informally provided on-the-job support for less experienced or newly selected COTRs,
but this practice needs to be consistently applied across the IRS program offices with a more
formal structure. Our interviews with newly selected COTRs located in the IRS field offices 21
indicated that they were unaware of COTR procedure and guidance information that was
available to them on the IRS intranet, and they did not fully understand some of the COTR
responsibilities listed in their letter of delegated authority. We believe that an on-the-job support
program would assist in ensuring that all COTRs are aware of the available guidance and fully
understand their COTR duties.
In addition, more frequent interaction with the COs and with other Federal Government
employees working on similar contracts will assist the COTRs in better performing their
assignments. Unless management provides these newly selected or less experienced COTRs
with formal training in compliance with certification requirements 22 as well as consistent
ongoing on-the-job style coaching and support, these less experienced COTRs are less likely to
ensure that goods/services are received in accordance with terms of the contract and with cost
and/or schedule requirements. This is critical because COTRs are often the primary internal
control and the “last line of defense” to ensure that contractors are meeting the terms of the
contract.
While we did not review American Recovery and Reinvestment Act of 2009 procurements as
part of this review, the importance of effective COTR oversight to mitigate the Government’s
risk on any contract is crucial. Any actions taken by the IRS to strengthen controls over contract
administration will enable the IRS to have more assurance that the Government’s interest is
protected for contracts awarded with American Recovery and Reinvestment Act of 2009 funds.

Recommendation
Recommendation 5: The Deputy Commissioner for Operations Support and the Deputy
Commissioner for Services and Enforcement should ensure that consistent ongoing on-the-job
support for newly selected or less experienced COTRs, both in the Office of Procurement and the
program offices, is provided to enable the COTRs to learn and effectively perform their
responsibilities.

21
  See Appendix IV for a list of the field offices included in this review.
22
  Office of Procurement Policy Memorandum, the Federal Acquisition Certification for Contracting Officer
Technical Representatives, dated November 26, 2007. This training reflects recommendations from an interagency
working group led by the Federal Acquisition Institute and applies to all executive agencies, except those subject to
the Defense Acquisition Workforce Improvement Act.
                                                                                                            Page 14
               Controls Over the Contracting Officer’s Technical
            Representatives Workforce Were Ineffective, Resulting in
                     Significant Risks to the Government


Management’s Response: The IRS agreed with the recommendation. In Fiscal
Year 2009, the Office of Procurement officially launched the online IRS Procurement
101 Reference Guide to include an entire section dedicated to providing valuable
resources and information to assist COTRs with learning and effectively performing their
responsibilities.
The Office of Procurement will continue to provide COTR training and continuous
learning opportunities in accordance with the Government-wide Federal Acquisition
Certification in contracting policy and maintains a dedicated program staff to process
certifications and answer training and certification-related questions.
In addition, the Office of Procurement’s internal guidance will be updated to include a
requirement for all COs to meet with COTRs upon appointment and on a periodic basis
following appointment and to review COTR files annually and to document the meetings.




                                                                                  Page 15
                           Controls Over the Contracting Officer’s Technical
                        Representatives Workforce Were Ineffective, Resulting in
                                 Significant Risks to the Government


                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review is to determine whether the IRS’ COTRs are properly
managed and functioning in a manner, as directed by the responsible COs and applicable
guidance, which will ensure that goods/services are received in accordance with the terms of the
contracts and within the cost and/or schedule requirements. To accomplish our objective, we:
I.       Became familiar with the IRS’ post-contract award 1 activities, processes, and risks
         associated with the COTR role.
         A. Obtained an understanding of the COs’ and COTRs’ contract administration roles
            based on IRS written policies and procedures.
         B. Interviewed COTRs, COs, and other procurement and project personnel, as necessary,
            and confirmed our understanding of the procedures for governing the COs’ and
            COTRs’ roles during the contract administration process.
         C. Documented the risks and identified the controls to minimize those risks associated
            with the COTRs’ role to perform their job, communicate with key players (the CO,
            contractor, and customer), receive needed training, and be well qualified for the
            designated contracting assignment.
         D. Obtained an example of a COTR Certificate of Responsibilities as prepared by a CO.
         E. Received a list from the Office of Procurement of the 201 COTRs who served on
            approximately 662 task/delivery orders from 1,250 contract actions that were
            awarded between August 2002 and February 2008.
         F. Prepared a sampling plan outlining the method to select a sample of COTRs and
            contracts for review. We chose the random method of sampling to ensure non-bias in
            the review. We randomly selected a sample of 37 COTRs from the population of 201
            current IRS Office of Procurement COTRs. These 37 COTRs were assigned 61
            contract actions totaling $54.3 million. Because 6 of the 37 randomly selected
            COTRs had either retired, left the IRS, or had no contract responsibilities, only 31
            COTRs were included in our review. The 31 COTRS were assigned to 54 contract
            actions, totaling $45.1 million. We examined whether the COTRs were performing
            their post-award responsibilities. We selected up to three contracts for each COTR


1
 All needed actions on the contract after it has been awarded such as the daily administration of fiscal and technical
aspects of the contract that ensure its terms and conditions are met.
                                                                                                             Page 16
                      Controls Over the Contracting Officer’s Technical
                   Representatives Workforce Were Ineffective, Resulting in
                            Significant Risks to the Government


          based upon the contract type, contract value, and the number of multiple contract
          actions assigned to each COTR.
II.    Determined whether COTRs are effectively performing their contract administrative
       duties in accordance with IRS policies and procedures to ensure that contracts are
       properly managed to meet the IRS’ needs.
       A. For all COTRs and contracts included in the sample, assessed CO and COTR contract
          files and determined whether the following contract administrative activities were
          documented to protect the Federal Government’s interest:
          1. Performance of invoice verification in compliance with IRS policies and
             procedures.
          2. Monitoring of contract expenditures.
          3. Interaction with contractors to observe their work activities and progress on
             deliverables, including frequently submitted status reports to the COTR.
          4. Performance of inspections and the receipt and acceptance of product
             deliverables.
III.   Determined whether the IRS effectively provided COTRs with the necessary training
       needed to perform their job or improve their job performance.
       A. Identified that a COTR review group exists to identify COTR training needs.
       B. Confirmed that COTRs are in compliance with IRS Memorandum 1.6(C),
          Appointment of Contracting Officer’s Technical Representatives (COTRs) and
          Alternate COTRs, dated January 1, 2008.
IV.    Determined whether the IRS has effectively provided oversight of the post-award
       activities.
       A. Determined whether the CO and the first-line manager overseeing the COTRs
          adequately evaluated them on their contract administration duties.
       B. Determined whether COTR evaluations were performed on an annual basis,
          documented their performance of specific contract tasks, included positive or
          negative feedback on the COTRs’ performance, and involved follow up on negative
          evaluations.
V.     Determined whether the IRS has effectively evaluated the performance of the COTRs by
       reviewing the appropriate documentation and/or information needed to assess the
       performance of COTRs on post-award contracts.




                                                                                         Page 17
                     Controls Over the Contracting Officer’s Technical
                  Representatives Workforce Were Ineffective, Resulting in
                           Significant Risks to the Government


                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia P. Mrozowski, Director
Mildred Rita Woody, Audit Manager
Thomas Brunetto, Audit Manager
Seth Siegel, Acting Audit Manager
Gary D. Pressley, Lead Auditor
Chinita Coates, Auditor
Melvin Lindsey, Auditor
Niurka M. Thomas, Auditor




                                                                                  Page 18
                     Controls Over the Contracting Officer’s Technical
                  Representatives Workforce Were Ineffective, Resulting in
                           Significant Risks to the Government


                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Director, Procurement OS:A:P
Director, Financial Management Services OS:CTO:M:FM
Chief, Agency-Wide Shared Services OS:A
Chief Human Capital Officer OS:HC
Chief Technology Officer OS:CTO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Services and Enforcement SE
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Tax Exempt and Government Entities Divison SE:T
       Commissioner, Wage and Investment Division SE:W
       Chief, Agency-Wide Shared Services OS:A
       Chief Human Capital Officer OS:HC
       Chief Technology Officer OS:CTO
       Director, Financial Management Services OS:CTO:M:FM
       Director, Collection, Small Business/Self-Employed Division SE:S:C
       Director, Procurement OS:A:P




                                                                                  Page 19
        Controls Over the Contracting Officer’s Technical
     Representatives Workforce Were Ineffective, Resulting in
              Significant Risks to the Government


                                                    Appendix V

Management’s Response to the Draft Report




                                                           Page 21
   Controls Over the Contracting Officer’s Technical
Representatives Workforce Were Ineffective, Resulting in
         Significant Risks to the Government




                                                      Page 22
   Controls Over the Contracting Officer’s Technical
Representatives Workforce Were Ineffective, Resulting in
         Significant Risks to the Government




                                                      Page 23
   Controls Over the Contracting Officer’s Technical
Representatives Workforce Were Ineffective, Resulting in
         Significant Risks to the Government




                                                      Page 24
   Controls Over the Contracting Officer’s Technical
Representatives Workforce Were Ineffective, Resulting in
         Significant Risks to the Government




                                                      Page 25
   Controls Over the Contracting Officer’s Technical
Representatives Workforce Were Ineffective, Resulting in
         Significant Risks to the Government




                                                      Page 26
   Controls Over the Contracting Officer’s Technical
Representatives Workforce Were Ineffective, Resulting in
         Significant Risks to the Government




                                                      Page 27
